U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            August 2011
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the nineteenth since enactment of the legislation in October 2001, summarizes
the OIG’s Section 1001-related activities from January 1, 2011 through
June 30, 2011.

I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), U.S. Marshals
Service (USMS), the U.S. Attorneys’ Offices, and other DOJ components.1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG has authority to investigate allegations of misconduct by any Department
employee, except for allegations of misconduct "involving Department attorneys, investigators,
or law enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 § 8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                             Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 440 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 6 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001.2 The
Special Agent in Charge who directs this unit is assisted by two Assistant
Special Agents in Charge (ASAC), one of whom assists on FBI matters and the
other of whom provides support on DEA and ATF matters. In addition, five
Investigative Specialists support the unit and divide their time between Section
1001 and FBI/DEA/ATF responsibilities.

       The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The Investigative
Specialists review the complaints and make recommendations concerning
appropriate disposition. After review, the Investigative Specialists enter each
complaint alleging a violation within the investigative jurisdiction of the OIG or
another federal agency into an OIG database. Serious civil rights and civil
liberties allegations relating to actions of DOJ employees or contractors are
typically assigned to an OIG Investigations Division field office, where special
agents conduct investigations of criminal violations and administrative
misconduct.3 Some complaints are assigned to the OIG’s Oversight and Review
Division for investigation.

       Given the number of complaints OIG receives compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints the OIG receives involve matters outside its
jurisdiction. The OIG forwards those matters that identify a specific issue for
investigation to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the Border Patrol are sent to the
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

         3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG may continue the
investigation and treat the matter as a case for potential administrative discipline. The OIG’s
ability to handle matters criminally or administratively helps to ensure that a matter can be
pursued administratively even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Department of Homeland Security (DHS) OIG. The DOJ OIG also forwards
complaints to the Offices of Inspectors General at the Departments of Defense,
Education, and Veterans’ Affairs. In addition, the DOJ OIG refers
complainants to state Departments of Correction that have jurisdiction over the
subject of the complaints. Allegations related to the authority of a DOJ
attorney to litigate, investigate, or provide legal advice are referred to the DOJ
Office of Professional Responsibility.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the OIG discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.
In addition, the OIG notifies the DOJ Civil Rights Division of complaints
alleging violations of federal civil rights statutes by state and local law
enforcement or government officials.

      A. Complaints Processed During This Reporting Period

      Between January 1, 2011 and June 30, 2011, the period covered by this
report, the OIG processed 1,065 new civil rights or civil liberties complaints.4

      Of these complaints, 910 did not fall within the OIG’s jurisdiction or did
not warrant further investigation. The vast majority (854) of these complaints
involved allegations against agencies or entities outside the DOJ, including
other federal agencies, local governments, or private businesses. When
possible, the OIG referred those complaints to the appropriate entity or advised
complainants of the entity with jurisdiction over their allegations. Some
complaints (56) raised allegations that were not suitable for investigation by the
OIG and could not be referred to another agency for investigation, generally
because the complaints failed to identify a subject or agency.

       The OIG found that 155 of the 1,066 complaints it received involved DOJ
employees or DOJ components and included allegations that required further
review. The OIG determined that 141 of these complaints raised management
issues generally unrelated to the OIG’s Section 1001 duties and, consequently,
referred these complaints to DOJ components for appropriate handling.
Examples of complaints in this category included allegations by federal
prisoners about the general prison conditions and by others that the FBI did
not initiate an investigation into particular allegations.

     4   These complaints include all matters in which the complainant made any mention of a
civil rights or civil liberties violation, even if the allegation was not within the OIG’s jurisdiction.




Office of the Inspector General, U.S. Department of Justice                                Page 4
       The OIG identified and referred to BOP 14 complaints warranting further
investigation to determine whether Section 1001-related abuses occurred. The
next section of this report describes the substance of these 14 complaints.
Notably, none of the complaints processed during this reporting period
specifically alleged misconduct by DOJ employees relating to the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components, including allegations
requiring further review:

      Complaints processed                         1,065

      Unrelated complaints                           910

      Total complaints within OIG’s
      jurisdiction warranting review                 155

      OIG investigation                                 0

      Management issues                              141

      Possible Section 1001 Complaints
      warranting investigation                         14

    B. Section 1001 Complaints

       1. Investigations Opened During This Reporting Period

        The OIG referred 14 Section 1001-related complaints to the BOP for
investigation. BOP completed investigations of three complaints during this
period; investigations of the remaining 11 complaints continue at present. The
OIG has requested that, upon completion of the investigation of each referred
complaint, BOP provide the OIG a copy of its investigative report.

            a. Completed BOP Investigations

            •   A BOP inmate alleged that during a “shakedown,” a correctional
                officer took another inmate’s Koran and threw it in the trash.
                According to the complainant, the correctional officer allegedly
                stated that the Koran was institutional property and noted that
                it had been altered with various writings and markings on the
                pages. BOP interviewed the correctional officer who stated that
                she found a Koran while conducting a search of an inmate’s cell
                and that the Koran had been altered from its original condition
                with markings on the pages and binding. The correctional


Office of the Inspector General, U.S. Department of Justice           Page 5
                officer said that because the book did not contain the name of
                an inmate or a register number, the correctional officer
                discarded it as contraband. A BOP investigation determined
                that an inmate later retrieved the Koran from the trash. When
                a staff lieutenant asked the correctional officer about the
                incident, the correctional officer stated that, rather than throw
                it away, a better solution would have been to give the Koran to
                the prison chaplain for appropriate disposition. The
                correctional officer apologized to the inmate for discarding the
                Koran. The BOP decided that, since the Koran was not the
                personal property of the inmate and the correctional officer
                apologized for having exercised poor judgment, no disciplinary
                action was necessary.

            •   A Muslim inmate alleged that he was targeted by staff for no
                reason other than their hatred toward Islam and Muslims. The
                inmate alleged that he was sent to the Special Housing Unit
                (SHU) three times in 16 months because of staff discrimination
                against Muslim inmates. BOP’s investigation revealed that the
                inmate was placed in the SHU due to allegations that he was
                attempting to radicalize the Muslim inmate population and
                incite inmates to assault staff. Based on inmate interviews,
                information received from staff, and the fact that the compound
                became more secure when complainant and other inmates were
                temporarily removed from the general population, BOP
                concluded there was insufficient evidence to substantiate the
                allegations and closed its investigation.

            •   A BOP inmate complained about being designated a terrorist
                and alleged unlawful continuation of Special Administrative
                Measures (SAM) restrictions. He alleged that the restrictions
                resulted in his being locked down 24 hours a day and having no
                communication with his family and friends. The inmate also
                alleged that he was denied necessary medication and was the
                victim of theft of personal property and legal work from his cell.
                The inmate did not provide the names of any specific staff
                regarding his allegations. BOP determined there was no
                evidence that the inmate was designated as a terrorist. BOP
                found further that the inmate had previously been under SAM,
                but was placed in the general population when the restrictions
                were no longer necessary. Moreover, according to the BOP, the
                inmate was participating in a program that provided him the
                opportunity to be transferred to an open penitentiary upon
                demonstrating and maintaining good behavior. BOP
                investigators interviewed the prison staff and found no evidence
                that the staff failed to follow policy, discriminated against the


Office of the Inspector General, U.S. Department of Justice             Page 6
                inmate, or stole the inmate’s property. BOP concluded that the
                allegations were not substantiated and the investigation was
                closed.

            b. Continuing BOP Investigations

            •   A Muslim inmate alleged that a BOP employee often discussed
                his post-traumatic stress disorder and told the inmate that he
                could kill him and get away with it. The inmate further alleged
                that the BOP employee spoke negatively about Egyptians and
                called the inmate a “suicide bomber.”

            •   A Muslim inmate alleged that a correctional officer exhibited a
                pattern of ridiculing Islamic prayers and religious beliefs. The
                inmate alleged that the correctional officer intentionally
                attempts to create problems with Muslim inmates.

            •   A Muslim inmate alleged that a BOP employee encouraged staff
                to issue fabricated incident reports against him and other
                Muslim inmates and to find the Muslim inmates guilty of the
                fictitious offenses. The inmate also alleged that Muslim inmates
                receive more restrictive sanctions than non-Muslim inmates for
                misconduct.

            •   A Muslim inmate alleged that a BOP lieutenant harassed and
                showed hatred toward Arab-Muslim inmates; made false
                allegations against an Arab-Muslim inmate and placed him in
                the SHU; and gave Muslim inmates evil, hateful looks for no
                reason other than their religion and ethnicity.

            •   A Muslim inmate alleged that he was assaulted because he is
                Muslim and of Arab descent. The inmate alleged he was
                unjustly placed in the SHU for 28 days, which caused him to
                lose his job at the facility. The inmate also alleged that every
                time he asked staff about filing an administrative remedy he
                was threatened with being sent to the SHU. The inmate stated
                that he believes the staff possesses a deep-rooted hatred toward
                Muslim inmates.

            •   A Muslim inmate alleged that (i) BOP employees have suggested
                that all Taliban and Al-Qaida should be killed; (ii) Muslim
                inmates are not permitted to pray individually at the workplace
                or to return to their cells for prayers during their work
                assignments; (iii) Muslim inmates are placed in the SHU more
                frequently than non-Muslim inmates; (iv) Muslim inmates’
                administrative remedy requests are ignored; and (v) BOP staff


Office of the Inspector General, U.S. Department of Justice             Page 7
                have threatened Muslim inmates to discourage them from filing
                administrative remedy requests. The complainant stated that
                efforts to address these issues have been unsuccessful.

            •   A BOP employee reported that Muslim inmates told her that
                when the inmates were praying in the recreation yard, a BOP
                employee approached them and began cursing at them. When
                one of the inmates tried to speak with the employee who cursed
                at them, the employee allegedly made a pejorative statement
                about their praying, and allegedly told the inmates that they
                were on the “wrong side” and that “we can smoke you anytime
                we want.”

            •   A Muslim inmate alleged that: (i) his religious diet was
                suspended and he was placed in “racial segregation” because of
                lies fabricated by the chaplain and his assistant; (ii) staff
                tampered with his legal mail and obstructed calls to his
                attorneys; (iii) BOP staff censured his participation during
                Islamic services and studies; (iv) BOP inappropriately classified
                him as an international terrorist; and (v) a lieutenant told him
                the staff hates him.

            •   A Muslim inmate alleged that he was denied his religious diet.
                The inmate alleged that when he addressed the issue with a
                staff member, he was told that he had no rights as a prisoner
                and that he would not be assisted in obtaining a religious diet.
                The inmate believes he has been the subject of discrimination
                based on his religion and ethnicity.

            •   A Muslim inmate alleged that a BOP physician sexually
                harassed her during an examination. The inmate further
                alleged that she has been racially profiled since September 11,
                2001. The inmate also stated that a BOP employee would not
                permit her to wear loose-fitting clothing and long sleeved shirts
                as required by her religion, and that she was placed in the SHU
                for having worn a loose-fitting shirt.

            •   A Muslim inmate alleged that the chaplain and the Religious
                Services Department are discriminating against non-Christian
                religious groups, especially the Moorish Science Temple, an
                Islamic group. The inmate alleged that the chaplain has a
                history of unprofessional conduct toward the Moorish
                community and of attempts to cover up his unprofessional
                behavior. The inmate stated that the claims of the Moorish
                Science Temple inmates have not been successfully addressed
                through the administrative remedy process.


Office of the Inspector General, U.S. Department of Justice             Page 8
      2. Pending Investigations Opened During Previous Reporting
         Periods

         a. OIG Investigation

         The following is a summary of the single ongoing OIG investigation
         opened during a prior reporting period:

            •   The OIG is investigating a Muslim inmate’s allegations that two
                BOP staff members told him they and others hated him because
                he is Arab and Muslim and that those employees made crude
                statements to him relating to his religious articles. The inmate
                alleged further that BOP correctional officers directed other
                inmates to attack him and that he did not receive timely
                medical treatment for injuries resulting from the assault. In
                addition, the inmate alleged that several prison officials
                threatened him in an effort to force him to withdraw these
                complaints. Other allegations made by the inmate include that
                his mail was withheld from him and that he was denied a
                transfer to another facility.

         b. Complaints Referred to BOP

         The OIG referred the following five complaints to the BOP for
         investigation during a prior reporting period and the investigations
         remain open. The OIG has requested that, upon completion of the
         investigation of each referred complaint, BOP provide OIG a copy of its
         investigative report.

            •   A Muslim inmate alleged that a BOP chaplain attempted to deny
                Sunni Muslim inmates the right to pray in the prison chapel,
                issued a memorandum stating when Sunni Muslim inmates
                could pray, repeatedly showed her dislike of Sunni Muslim
                inmates, and used her official position to oppress Sunni Muslim
                inmates.

            •   A BOP employee alleged that an inmate told him that BOP staff
                directed him to stop helping Islamic inmates, “because we don’t
                help terrorists.”

            •   A Muslim inmate alleged that a BOP chaplain locked Muslim
                inmates in a room for prayers because he did not like them
                standing in the hallway outside his office. The complainant also
                alleged that the chaplain told other inmates that the Muslims
                love to read their Koran but always want to blow up something.


Office of the Inspector General, U.S. Department of Justice           Page 9
            •   A Muslim inmate alleged that a BOP correctional officer sprayed
                him with chemical agents even though he knew the inmate
                suffered from chronic asthma. The inmate also alleged he was
                restrained by his ankles and hands and left in an empty room
                without a toilet, sink, shower, bed, food, or water for two days.
                Further, the inmate alleged a BOP correctional officer told him
                he hated Muslims, forbade him from practicing his religion, and
                told him if he was hungry that he had a pork chop sandwich for
                him. A BOP incident report indicated that the inmate refused to
                submit to restraints and that a team was required to extract the
                inmate from his cell. The inmate was medically assessed in a
                holding cell and given new clothing.

            •   A Muslim inmate alleged that he was physically and mentally
                tortured, provided meals containing pork products contrary to
                his religious diet, and placed in the SHU for no reason.

      3. Previously Opened Investigations Closed During This Reporting
         Period

       The OIG completed its investigation of three Section 1001-related
matters opened in prior periods. Additionally, the BOP completed
investigations of 13 Section 1001-related complaints previously referred by the
OIG in prior periods. Upon completion of the investigation of each referred
complaint, BOP provided the OIG a copy of its investigative report.

         a. Closed OIG Investigations

            •   A BOP inmate alleged that a correctional officer was prejudiced
                against him because the inmate was no longer Muslim and that
                the correctional officer called him a “hypocrite” and a “snitch.”
                The inmate further alleged that the same correctional officer
                threatened his life and threatened to harm his family. The
                inmate also alleged that prison staff tampered with his property.
                The BOP interviewed the correctional officer, who denied calling
                the inmate a hypocrite, snitch, or rat, or making any other
                disparaging, threatening, insulting, or derogatory statement to
                the inmate. The correctional officer also denied threatening to
                harm the inmate or his family. The OIG interviewed several
                BOP employees identified by the complainant as having
                witnessed the incident. Each denied having seen or heard the
                correctional officer threaten the inmate or his family. The OIG
                closed its investigation concluding the allegations were
                unsubstantiated.



Office of the Inspector General, U.S. Department of Justice            Page 10
            •   A Muslim inmate alleged that a correctional officer lied in an
                incident report in which he wrote that the inmate’s Koran and
                personal letters were confiscated and given to the sheriff’s
                deputy escorts for disposition. The inmate alleged that the
                correctional officer actually threw the items in the trash. A
                search confirmed that the Koran and letters had been thrown
                away and not given to the deputies.

                Based on the consistent and credible reports of the incident by
                the complainant and three other inmates, the recovery of the
                inmate’s items in the trash, and the less credible accounts by
                two involved correctional officers, the OIG determined that one
                of the correctional officers had confiscated the complainant’s
                Koran and thrown it in the trash. This correctional officer
                subsequently retired from the BOP because he reached
                mandatory retirement age.

                The OIG investigation did not find that the correctional officers
                colluded to cover up the incident by falsifying an incident
                report. The OIG determined that both correctional officers were
                operating under the erroneous understanding that a Koran is
                not among the list of items authorized for entry into the prison.
                However, a 2007 Memorandum of Understanding (MOU)
                between the USMS and the BOP allows for daily prayer items,
                such as a Koran, among the items inmates may bring with them
                upon admission to a BOP facility, provided the item is in an
                authorized container. The OIG determined that, at the time of
                the alleged incident, neither the correctional officers nor their
                supervisor was aware of the MOU.

            •   A Muslim inmate alleged that BOP and USMS staff had
                assaulted him during his transfer of custody. The inmate
                alleged that a BOP employee removed his kufi from his head in
                a “violent manner” while he was being taken out of a transport
                van. The inmate further alleged that the BOP employee pushed
                him, causing him to fall to the ground, and that the BOP and
                USMS employees then dragged him on the ground while he was
                shackled. A medical assessment of the inmate found abrasions
                to his head, left shoulder, knees, and ankles. The inmate was
                unable to identify the officer who allegedly assaulted him when
                he was shown photographs of the employees present during the
                incident in question. Medical records indicated that the inmate
                had sustained injuries prior to the incident in question.
                Additionally, none of the witnesses present at the time of the
                transport corroborated the inmate’s allegation of an assault.



Office of the Inspector General, U.S. Department of Justice            Page 11
                The OIG closed its investigation concluding the allegations were
                unsubstantiated.

         b. Closed BOP Investigations

            •   An inmate from Pakistan alleged that BOP employees
                discriminated against him because of his race and religion. The
                inmate alleged that he was transferred several times and
                unfairly placed in the SHU, where he was harassed by
                correctional officers, did not receive timely medical treatment,
                had his legal documents confiscated, and was forced to sleep on
                dirty bed linens. The inmate failed to provide a statement to
                BOP investigators; therefore, no witnesses were identified. The
                inmate told investigators that his allegations were addressed in
                a civil court proceeding, so he considered the matter closed.
                Additionally, the SHU lieutenant was interviewed and denied
                recalling any of the issues raised by the inmate. The BOP
                concluded that the inmate’s allegations were unsubstantiated
                and closed the investigation.

            •   A Muslim inmate alleged that during a Muslim holiday meal, a
                BOP correctional officer shouted at him in a “caustic tone” to
                intentionally disturb the holiday meal. The inmate alleged that
                this correctional officer often interrupted and harassed Muslim
                inmates as they worshipped and celebrated their faith. The
                inmate further alleged that the inmates have requested that
                BOP transfer this correctional officer. According to the inmate,
                the BOP allows the correctional officer to harass and intimidate
                Muslim inmates in their religious activities. The correctional
                officer denied the allegations. BOP’s investigation revealed
                insufficient evidence that the correctional officer acted in an
                unprofessional manner. The BOP concluded that the inmate’s
                allegations were unsubstantiated and closed the investigation.

            •   A Muslim inmate alleged he was fired from his job without
                explanation at the BOP commissary. The inmate submitted an
                administrative remedy request and was informed that he was
                fired because he allegedly abused prison rules relating to the
                use of the commissary. The complainant stated the allegation
                against him was false and a pretext for discrimination because
                he was Muslim. The inmate also alleged that a BOP employee
                told him, “there’s no good Muslim except a dead Muslim,”
                placed his hands on the inmate in a threatening manner, and
                put a sticker on his back saying, “I love pork bacon.” The BOP
                investigation determined that the inmate was fired from his job
                because he violated prison rules by bringing other inmates’


Office of the Inspector General, U.S. Department of Justice            Page 12
                commissary slips into work. BOP investigators interviewed the
                commissary employees, who denied discriminating against or
                making disparaging remarks to the complainant. The BOP
                concluded that the inmate’s allegations were unsubstantiated
                and closed the investigation.

            •   A Muslim inmate alleged that two BOP chaplains discriminated
                against Muslim inmates by restricting the Muslim community’s
                religious services and not offering Muslims the same programs
                offered to Christian inmates. The investigation determined that
                the prayer time allotted to Muslim inmates was consistent with
                BOP policy and that inmates were permitted to engage in their
                religious practices. The BOP concluded that the inmate’s
                allegations were unsubstantiated and closed the investigation.

            •   A Muslim inmate alleged that a BOP chaplain who oversaw
                religious services at a BOP facility openly showed his “dislike,
                hatred, and discrimination” toward Muslim inmates and that
                BOP officials ignored the chaplain’s actions. The BOP
                investigators interviewed the chaplain, who denied the inmate’s
                allegations. Staff witnesses also denied hearing the chaplain
                make unprofessional comments to Muslim inmates. The BOP
                concluded that the inmate’s allegations were unsubstantiated
                and closed the investigation.

            •   A Muslim inmate alleged that a BOP cook supervisor referred to
                Muslim inmates as “shoe bombers” and “women beaters” and
                stated that Islam is not a real religion. The inmate also alleged
                that the cook supervisor prevented Muslim inmates from
                participating in the Muslim ceremonial meal, Eid Fitrah, by not
                permitting inmates to take food from the dining hall to their
                housing units. The inmate alleged that when he asked the cook
                supervisor why she would not permit Muslims to take their
                religious meal out of the dining hall, she responded, "Not on my
                watch." The inmate further alleged that the cook supervisor
                falsely accused him of inciting a riot.

                During the BOP investigation, the cook supervisor denied
                making the alleged derogatory comments and an inmate
                witness said he did not hear the cook supervisor utter the
                alleged remarks. The inmate witness did state that the food
                services administrator had informed the inmates they could
                remove food from the dining hall. However, in his interview
                with the BOP investigators, the food services administrator
                denied having so informed the inmates. The food services
                administrator also told the BOP that no inmate ever complained


Office of the Inspector General, U.S. Department of Justice            Page 13
                to him that the cook supervisor spoke in an unprofessional
                manner. The BOP concluded that the inmate’s allegations were
                unsubstantiated and closed the investigation.

            •   A Muslim inmate alleged that during Ramadan, BOP staff
                poisoned his food and the food of other Muslim inmates. The
                inmate alleged that he experienced stomach pain and vomiting
                as a result of the food poisoning and did not receive adequate
                medical care. The BOP investigators determined that the
                inmate was examined on several occasions and was diagnosed
                with dyspepsia, constipation, and anorexia, for which he was
                prescribed medication and nutritional supplements. The
                inmate later told BOP investigators that he had alleged he was
                poisoned because he thought he would receive a transfer to
                another facility. The BOP concluded that the inmate’s
                allegations were unsubstantiated and closed the investigation.

            •   A Muslim inmate alleged that a BOP correctional officer
                discriminated against him because of his religious beliefs by
                spitting in his food and denying him recreation time. The
                inmate alleged that the correctional officer told another that he
                despised all Muslims. The inmate claimed he reported the
                alleged discrimination within the facility, but no action was
                taken. The correctional officer provided a sworn statement
                denying the inmate’s allegations. The inmate admitted that he
                did not witness the correctional officer spit in his tray.
                Moreover, the inmate’s initial allegation about the correctional
                officer spitting in his food tray was inconsistent with
                information he provided when BOP interviewed the inmate.
                Additionally, SHU documents showed that the inmate was
                offered recreation but sometimes refused it. The BOP
                concluded that the inmate’s allegations were unsubstantiated
                and closed the investigation.

            •   A Muslim inmate alleged that BOP correctional officers issued
                fabricated incident reports to several Muslim inmates for
                participating in an unauthorized prayer meeting. The inmate
                alleged further that the incident reports were expunged when a
                videotape showed that the alleged misconduct was fabricated.
                The inmate further alleged that, approximately one month later,
                one of the correctional officers involved in issuing the first
                incident report issued a second incident report also containing
                fabricated information. BOP investigators interviewed the
                correctional officer who wrote the second incident report. The
                officer denied writing any false allegations against the inmate.
                There were no witnesses to corroborate the inmate’s allegations.


Office of the Inspector General, U.S. Department of Justice             Page 14
                Additionally, Communications Management Unit (CMU)
                employees told the BOP investigators that incident reports
                issued to inmates were based on suspected policy violations. A
                review of local policies showed that there are designated areas
                and times in the CMU for inmates to pray and consume meals
                together. There was no evidence of a disproportionate number
                of incident reports issued to Muslim inmates compared to those
                issued to non-Muslim inmates. The BOP concluded that the
                inmate’s allegations were unsubstantiated and closed the
                investigation.

            •   A BOP employee alleged that he received a racially inflammatory
                e-mail from another BOP employee. BOP investigators
                determined that the sending employee had received the e-mail
                from another employee and had forwarded it to several staff,
                including the complainant. Both BOP employees admitted
                sending the offending e-mail and acknowledged that the racially
                inflammatory statement in the message was inappropriate for
                the workplace. In the last Patriot Act report, the OIG stated
                that this matter was pending disciplinary action. During this
                reporting period, the BOP informed the OIG that one of the
                employees resigned and the other employee received a written
                reprimand.

            •   A Muslim inmate alleged that unidentified BOP employees
                touched him inappropriately during pat searches. The inmate
                also alleged that his correctional counselor jeopardized his
                safety by disclosing to other inmates that he was a convicted
                sex offender. Further, the inmate alleged that he was denied
                his right to keep religious property and to practice his Islamic
                faith. BOP identified three employees who may have pat
                searched the inmate on the date in question. All three denied
                touching the inmate inappropriately. The correctional
                counselor also denied discussing the inmate’s offense with
                anyone. Additionally, BOP investigators found no evidence that
                anyone withheld the inmate’s property or prohibited the inmate
                from practicing his religion. BOP determined that the inmate’s
                allegations were unsubstantiated and closed its investigation.

            •   A Muslim inmate alleged that a BOP correctional officer
                deliberately mocked the Islamic prayer in a loud voice to
                provoke Muslim inmates and to show disrespect for their faith.
                The inmate also alleged, without providing specific details, that
                the correctional officer repeatedly made racially biased and
                other inappropriate comments about Muslims. The correctional
                officers who were working on the date of the alleged incident


Office of the Inspector General, U.S. Department of Justice            Page 15
                submitted affidavits denying any wrongdoing. Additionally,
                none of the officers claimed to have witnessed any misconduct.
                The BOP concluded that the inmate’s allegations were
                unsubstantiated and closed the investigation.

            •   A Muslim inmate alleged that two BOP chaplains exhibited a
                pattern of incompetence and bias when dealing with Muslim
                inmates and Islamic issues. The inmate alleged that the
                chaplains issued memoranda restricting the size of prayer
                groups and the duration and location of daily Muslim prayers.
                The inmate also alleged that BOP staff monitors Muslim
                religious services and classes in a restrictive manner. BOP’s
                investigation failed to show sufficient evidence that the
                chaplains acted inappropriately toward the Muslim inmate
                population. However, one of the chaplains admitted that an
                anonymous note left in the chapel, which stated that he had
                used intimidation and threats when dealing with inmates, upset
                him. The chaplain admitted that he posted a reply on the wall
                addressing the anonymous complaint. OIG’s previous report
                indicated that this matter was closed but pending disciplinary
                action. During this reporting period, BOP informed the OIG
                that the chaplain received an oral reprimand.

IV.   OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
      AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A.   Review of the FBI’s Activities Under Section 702 of the Foreign
           Intelligence Surveillance Act Amendments Act of 2008

        Section 702 of the Foreign Intelligence Surveillance Act (FISA)
Amendments Act of 2008 (Act) authorizes the targeting of non-U.S. persons
reasonably believed to be outside the United States for the purpose of acquiring
foreign intelligence information. As required by the Act, the OIG examines the
number of disseminated FBI intelligence reports containing a reference to a
U.S. person identity, the number of U.S. person identities subsequently
disseminated in response to requests for identities not referred to by name or
title in the original reporting, the number of targets later determined to be
located in the United States, and whether communications of such targets were
reviewed. In addition, the OIG reviews the FBI’s compliance with the targeting
and minimization procedures required under the Act.


Office of the Inspector General, U.S. Department of Justice           Page 16
      B.   Review of the Department’s Use of Material Witness Warrants

       The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. 3144. Pursuant to the OIG’s responsibility under
Section 1001 of the Patriot Act, the review is addressing allegations of civil
rights and civil liberties abuses in the Department’s post-9/11 use of the
statute in the national security context. The review is also examining the
Department’s controls over the use of material witness warrants, trends in the
use of material witness warrants over time, and the Department’s treatment of
material witnesses in national security cases, including issues such as length
of detention, conditions of confinement, and access to counsel.

      C.   Review of the FBI’s Use of National Security Letters, Section
           215 Orders, and Pen Register and Trap-and-Trace Authorities
           under FISA from 2007 through 2009

       The OIG is again examining the FBI’s use of national security letters
(NSLs) and Section 215 orders for business records. Among other issues, this
review includes an assessment of the FBI’s progress in responding to the OIG’s
recommendations in its first and second reports on the FBI’s use of national
security letters and its report on the FBI’s improper use of exigent letters and
other informal means to obtain telephone records. A focus of this review is the
NSL subsystem, an automated workflow system for NSLs that became
operational in all FBI field offices and Headquarters in January 2008, and the
effectiveness of the subsystem in reducing or eliminating noncompliance with
applicable authorities. The current review also includes an examination of the
number of NSLs issued, 215 applications filed by the FBI between 2007 and
2009, and any improper or illegal uses of these authorities. In addition, the
OIG’s review includes an examination of the FBI’s use of its pen register and
trap-and-trace authority under FISA.

      D.   Audit of the FBI’s Management of Terrorist Watchlist
           Nominations and Encounters with Watchlisted Subjects

       The OIG is continuing its audit of the FBI’s management of terrorist
watchlist nominations and encounters with watchlisted subjects. In fiscal
years 2008 and 2009, the OIG conducted two audits related to the FBI
terrorist watchlist nomination practices. In these audits, the OIG found
that the FBI’s procedures for processing international terrorist nominations
were, at times, inconsistent and insufficient, causing watchlist data used
by screening agencies to be incomplete and outdated. The OIG found that
the FBI failed to nominate for watchlisting many subjects of its terrorism
investigations, did not nominate many others in a timely manner, and did
not update or remove watchlist records as required. As a result of these
reviews, the FBI reported that it had undertaken several initiatives and


Office of the Inspector General, U.S. Department of Justice            Page 17
implemented new processes and guidelines to enhance its watchlisting
system.

       The objectives of the OIG’s ongoing audit are to : (1) assess the
impact of recent events on the FBI’s watchlisting system; (2) evaluate the
effectiveness of the initiatives recently implemented by the FBI to ensure
the accuracy, timeliness, and completeness of the FBI’s watchlisting
practices, including watchlist nominations, modifications, and removals;
and (3) determine whether the FBI is appropriately managing terrorist-
related information obtained through the encounter process.

      E.   Audit of the Department’s Efforts to Ensure Safe and Secure
           Non-Federal Detention Facilities

       The OIG is conducting an audit of the Department’s efforts to ensure safe
and secure non-federal detention facilities. This audit originally focused on the
Office of the Federal Detention Trustee’s efforts, but was expanded to recognize
the role of the USMS in achieving this same outcome. According to a recent
Bureau of Justice Statistics report, between 2006 and 2010, the number of
federal detainees housed in non-federal detention facilities increased from
43,563 to 48,191. This audit seeks to determine whether the Department’s
oversight efforts ensure a safe, secure, and humane environment for federal
detainees held in these non-federal detention facilities.

V. EXPENSE OF IMPLEMENTING SECTION 1001

       Section 1001 requires the OIG to “submit to the Committee on the
Judiciary of the House of Representatives and the Committee on the Judiciary
of the Senate on a semi-annual basis a report . . . including a description of the
use of funds appropriations used to carry out this subsection.”

      During this reporting period, the OIG spent approximately $817,869 in
personnel costs, $0 in travel costs, and $100 in miscellaneous costs, for a total
of $817,969 to implement its responsibilities under Section 1001. The total
personnel and miscellaneous costs reflect the time and funds spent by OIG
special agents, inspectors, and attorneys who have worked directly on
investigating Section 1001-related complaints, conducting special reviews, and
implementing the OIG’s responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice             Page 18
